OIG Investigative Reports, Lubbock, TX., June 07, 2012 - Former Ira Independent School District Superintendent Pleads Guilty in Federal Court to Mail Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
SOUTHERN DISTRICT OF TEXAS
FOR IMMEDIATE RELEASE
June 07, 2012
Former Ira Independent School District Superintendent Pleads Guilty in Federal Court to Mail Fraud
LUBBOCK, Texas — Dr. Larry Gene Devitt, the former superintendent of the Ira Independent School District (IISD), appeared in federal court today before U.S. District Judge Sam R. Cummings and pleaded guilty to one count of mail fraud, announced U.S. Attorney Sarah R. Saldaña of the Northern District of Texas. Devitt faces a maximum statutory sentence of 20 years in prison, a $250,000 fine and restitution. In addition, in accordance with the terms of the plea agreement, Devitt agrees to voluntarily surrender his Texas Educator Certificate and understands that he will not have an opportunity to apply for another Certificate. Judge Cummings ordered a presentence investigation report with a sentencing date to be set after the completion of that report.
According to documents filed in the case, from July 2006 through July 2007, while Devitt, 64, of Snyder, Texas, served as the superintendent of the IISD, he embezzled $13,438 in federal funds. He misused IISD vendors and the IISD Visa and Discover credit cards, issued in his name, to purchase property for his personal benefit. Devitt, however, represented that he was using the IISD credit cards and vendors for IISD work-related expenses, including supplies, travel, staff development and training. Devitt directed IISD staff to pay the vendors and credit cards by drawing a check on the IISD accounts.
Case is being investigated by the U.S. Department of Education. Assistant U.S. Attorney Paulina Jacobo is in charge of the prosecution.
Top
Printable view
Last Modified: 06/15/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov